OIG Investigative Reports Los Angeles, CA  03/22/2011 -  Former Employee of  Compton Community College Charged with Stealing Federal Student Aid Money
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
NEWS RELEASE
André Birotte Jr
United States Attorney
Central District of California
For Immediate Distribution
March 22, 2011
Thom Mrozek, Public Affairs Officer
(213) 894-6947
thom.mrozek@usdoj.gov
www.justice.gov/usao/cac
Former Employee of  Compton Community College Charged with Stealing Federal Student Aid Money
LOS ANGELES – A former financial aid officer at Compton Community College
has been indicted on federal charges related to a scheme that sought financial aid for
"students" who did not attend classes at the school and led to losses of more than
$50,000.
Millicent Cook, 46, of Paramount, was arrested by federal authorities on March
11 after being indicted on four counts of theft of student assistance funds.
A second person named in the indictment – Gwendolyn Renae Harris, 39, of
Long Beach, who did not work at the school – surrendered yesterday to federal
authorities.
An indictment returned by a federal grand jury on February 25 alleges that Cook
and Harris applied for Pell Grants, a form of federal financial aid, using the names and
social security numbers of "students" they recruited to help them in the scheme. The
recruits never attended classes at Compton Community College and, therefore, were
not entitled to receive the Pell Grants. Once the Pell Grants were funded, Cook and
Harris supplied a portion of the money to the "students" and then used the rest of the
money for their own personal expenses.
The scheme allegedly ran from early 2003 to late 2006, when it was discovered
during an audit of the community college. Investigators currently estimate that the
scheme caused losses of $56,064 to the U.S. Department of Education.
After surrendering yesterday, Harris was freed on a $5,000 bond. After Cook was
arrested on March 11, she was freed on a $5,000 bond. Both defendants pleaded not
guilty to the charges in the indictment.
Cook and Harris are currently scheduled to go to trial in May.
The charge of theft of student assistance funds carries a statutory maximum
penalty of five years in federal prison.
An indictment contains allegations that a defendant has committed a crime.
Every defendant is presumed innocent until and unless proven guilty.
This investigation was conducted by the U.S. Department of Education - Office
of Inspector General.
CONTACT: Assistant United States Attorney Ryan White
(213) 894-2296
Release No. 11-041
Top
Printable view
Last Modified: 03/24/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov